KOREIN TILLERY

Robert L. King

RKing@KoreinTillery.com
p: (314) 241-4844
f: (314) 241-3525

Attorneys at Law
One U.S. Bank Plaza
505 North 7th Street, Suite 3600
St. Louis, MO 63101-1625
www.KoreinTillery.com

July 2, 2020

via ECF only
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: Kansas City Royals Baseball Corp., et al., v. Senne, et al.,
No. 19-1339
Dear Mr. Harris,
I represent respondents in the above-referenced case. The petition for a writ of
certiorari was filed on June 1, 2020, and the brief in opposition is currently due on
July 13, 2020.
I respectfully request a 30-day extension of time for filing the brief in opposition,
which would make the brief due on August 12, 2020. This request is being made because of a number of other pressing commitments that I have in other cases.
Petitioner’s counsel has authorized me to state that petitioners consent to this
request.
Very truly yours,

Robert L.
King
Robert L. King

Digitally signed by Robert L. King
DN: cn=Robert L. King, o=Korein
Tillery, ou,
email=rking@koreintillery.com,
c=US
Date: 2020.07.02 11:22:50 -05'00'

Korein Tillery is a Limited Liability Company

